E-Mail Address:

contact@cocklelegalbriefs.com

C@QCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JOSE LUIS GARZA, individually and as Representative of
the Estate of Jose Luis Garza, Jr., Deceased; VERONICA
GARZA, individually and as Representative of the Estate

of Jose Luis Garza, Jr., Deceased; CYNTHIA LOPEZ
as Next Friend of J.R.G., Minor Son,
Petitioners,
v.
CITY OF DONNA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2734 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE :
General Notary . Mitte,
State of Nebraska . LE ,

Notary Public Affiant 38462

My Commission Expires Nov 24, 2020

 
